CERTIFICATE OF SERVICE
NO. 19-319
Cruikshank-Wallace et vir.
Petitioner(s)
v.
CNA Financial Corporation, et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the CNA
FINANCIAL CORPORATION, ET AL. BRIEF IN OPPOSITION, by shipping three (3) true and correct copies
of the same by Federal Express two day service for delivery to the following addresses:
Bonnie Cruickshank-Wallace
Petitioner Pro Se
10 Crestview Dr.
Parkesburg, PA 19365
(610) 314-3756
Counsel for Bonnie Cruickshank-Wallace, et vir.

Lucas DeDeus

October 9, 2019
SCP Tracking: Hartman-151 N. Franklin Ave,-Cover Orange

